           U.S. Department of
                                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                          Date:   December 7, 2012
           Single Audit on the Orange County
           Transportation Authority
           Report No. QC-2013-024
                                                                                       Reply To    JA-20
                                                                                        Attn Of:
  From:    Joann K. Adam
           Acting Program Director for Single Audit

    To:    Regional Administrator, FTA, Region IV

           The U. S. Department of Transportation (DOT) is the cognizant Federal single audit
           agency for the Orange County Transportation Authority (Authority). This report
           presents the results of our Quality Control Review (QCR) of a single audit
           performed by Vavrinek, Trine, Day & Co., LLP (VTD) on the Authority for the
           fiscal year ending June 30, 2011. During this period, the Authority expended nearly
           $100 million from DOT grant programs, as shown on the attached Schedule of
           Expenditures of Federal Awards. The DOT program determined by VTD to be a
           major program was the Federal Transit Cluster.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of States,
           Local Governments, and Non-Profit Organizations,” requires the auditor to render
           an opinion on the entity’s financial statements, identify inappropriate use of Federal
           funds, and report internal control and compliance deficiencies that affect Federal
           grant programs.

           VTD rendered an unqualified opinion on the Authority’s financial statements. VTD
           also rendered an unqualified opinion on the Authority’s compliance with the Federal
           Transit Cluster’s requirements and did not question any costs. However, VTD made
           a recommendation to correct an internal control and compliance deficiency that
           directly affects the Federal Transit Cluster. 1

           SCOPE

           The purpose of our QCR was to determine: (1) whether the audit work complied with
           generally accepted Government auditing standards, the Single Audit Act of 1984, as
           amended (the Act), and OMB Circular A-133, and (2) the extent to which we can
           rely on the auditor’s work.
           1
               We advised FTA about this deficiency in a separate memorandum. VTD’s single audit report is available upon
               request to singleauditrequest@oig.dot.gov.
                                                                                 2

RESULTS

We determined that VTD’s work was Acceptable with Deficiencies. The audit work
generally met the requirements of generally accepted Government auditing standards,
the Act, and OMB Circular A-133. We found nothing to indicate that VTD’s opinion
on the Authority’s reports on internal control and compliance was inappropriate or
unreliable.

However, we identified deficiencies in audit documentation that VTD needs to
correct in future audits. Based on VTD’s explanations, we determined that these
deficiencies did not alter the overall results of the audit. The deficiencies, which
should be corrected in future audits, are related to the following areas:

Cash Management. VTD needs to improve its documentation of cash management
compliance testing to clearly show that vendor payment dates preceded
reimbursement request dates. As part of its internal controls testing, VTD determined
that before reimbursement requests can be processed, the Authority must pay its
vendors.

Matching, Level of Effort, Earmarking. VTD needs to improve its documentation
of matching compliance testing to clearly show how the Authority met its required
matching percentage. During our review, VTD representatives explained how they
used FTA’s Transportation Electronic Award Management (TEAM) system and the
Authority’s EXCEL spreadsheet to support its compliance testing. In addition, as part
of its internal control testing, VTD was able to verify that the Authority met its
matching requirement.

Consideration of Non-Compliance on Each Major Program Opinion. VTD did
not document how it considers non-compliance, both individually and in the
aggregate, when it determines the overall opinion for each major program. Based on
our review of the audit documentation, we agreed with VTD’s opinion on DOT’s
major program.

In all cases, VTD agreed to improve its audit documentation in future audits.

If you have any questions concerning this report, please call me at (202) 366-1488 or
John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                         #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Executive Director, Finance & Administration, OCTA
